<html>
<title> - U.S. VISA POLICY: COMPETITION FOR INTERNATIONAL SCHOLARS, SCIENTISTS, AND SKILLED WORKERS</title>
<body><pre>[Senate Hearing 109-759]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-759
 
 U.S. VISA POLICY: COMPETITION FOR INTERNATIONAL SCHOLARS, SCIENTISTS, 
                          AND SKILLED WORKERS

=======================================================================

                                HEARING

                               before the

      SUBCOMMITTEE ON IMMIGRATION, BORDER SECURITY AND CITIZENSHIP

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                            AUGUST 31, 2006

                               __________

                           RICHARDSON, TEXAS

                               __________

                          Serial No. J-109-105

                               __________

         Printed for the use of the Committee on the Judiciary


                    U.S. GOVERNMENT PRINTING OFFICE
32-147                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                       COMMITTEE ON THE JUDICIARY

                 ARLEN SPECTER, Pennsylvania, Chairman
ORRIN G. HATCH, Utah                 PATRICK J. LEAHY, Vermont
CHARLES E. GRASSLEY, Iowa            EDWARD M. KENNEDY, Massachusetts
JON KYL, Arizona                     JOSEPH R. BIDEN, Jr., Delaware
MIKE DeWINE, Ohio                    HERBERT KOHL, Wisconsin
JEFF SESSIONS, Alabama               DIANNE FEINSTEIN, California
LINDSEY O. GRAHAM, South Carolina    RUSSELL D. FEINGOLD, Wisconsin
JOHN CORNYN, Texas                   CHARLES E. SCHUMER, New York
SAM BROWNBACK, Kansas                RICHARD J. DURBIN, Illinois
TOM COBURN, Oklahoma
           Michael O'Neill, Chief Counsel and Staff Director
      Bruce A. Cohen, Democratic Chief Counsel and Staff Director
                                 ------                                

      Subcommittee on Immigration, Border Security and Citizenship

                      JOHN CORNYN, Texas, Chairman
CHARLES E. GRASSLEY, Iowa            EDWARD M. KENNEDY, Massachusetts
JON KYL, Arizona                     JOSEPH R. BIDEN, Jr., Delaware
MIKE DeWINE, Ohio                    DIANNE FEINSTEIN, California
JEFF SESSIONS, Alabama               RUSSELL D. FEINGOLD, Wisconsin
SAM BROWNBACK, Kansas                CHARLES E. SCHUMER, New York
TOM COBURN, Oklahoma                 RICHARD J. DURBIN, Illinois
                 Reed O'Connor, Majority Chief Counsel
                   Jim Flug, Democratic Chief Counsel


                            C O N T E N T S

                              ----------                              

                     STATEMENT OF COMMITTEE MEMBER

                                                                   Page

Cornyn, Hon. John, a U.S. Senator from the State of Texas........     1

                               WITNESSES

Cooper, Bo, former General Counsel, Immigration and 
  Naturalization Service, on behalf of Global Personnel Alliance, 
  Washington, D.C................................................     5
Daniel, David, President, University of Texas at Dallas, 
  Richardson, Texas..............................................     3
Kaplan, Lance, Partner, Fragomen, Del Rey, Bernsen, Loewy, LLC, 
  on behalf of the American Council on International Personnel, 
  Iselin, New Jersey.............................................    18
Norman, Phyllis, Vice President, Patient Care Services, Harris 
  Methodist Fort Worth Hospital, Fort Worth, Texas...............    16
Ritter, Philip J., Senior Vice President and Manager of Public 
  Affairs, Texas Instruments, Inc., Dallas, Texas................    14

                       SUBMISSIONS FOR THE RECORD

Black, Jan Hart, President, Greater Dallas Chamber, and Ken 
  Menges, Chair, International Business Advisory Council, Greater 
  Dallas Chamber, Partner-in-Charge of the Dallas Office, Dallas, 
  Texas, letter..................................................    27
Cooper, Bo, former General Counsel, Immigration and 
  Naturalization Service, on behalf of Global Personnel Alliance, 
  Washington, D.C., prepared statement...........................    29
Daniel, David, President, University of Texas at Dallas, 
  Richardson, Texas, prepared statement..........................    40
Kaplan, Lance, Partner, Fragomen, Del Rey, Bernsen, Loewy, LLC, 
  on behalf of the American Council on International Personnel, 
  Iselin, New Jersey, prepared statement.........................    46
Norman, Phyllis, Vice President, Patient Care Services, Harris 
  Methodist Fort Worth Hospital, Fort Worth, Texas, prepared 
  statement......................................................    59
Ritter, Philip J., Senior Vice President and Manager of Public 
  Affairs, Texas Instruments, Inc., Dallas, Texas, prepared 
  statement......................................................    62


 U.S. VISA POLICY: COMPETITION FOR INTERNATIONAL SCHOLARS, SCIENTISTS, 
                          AND SKILLED WORKERS

                              ----------                              


                       THURSDAY, AUGUST 31, 2006

                              United States Senate,
          Subcommittee on Immigration, Border Security and 
                                               Citizenship,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:17 a.m., at 
the TI Foundation Auditorium, Building ECSS, University of 
Texas at Dallas, Richardson, Texas, Hon. John Cornyn, Chairman 
of the Subcommittee, presiding.
    Present: Senator Cornyn.

OPENING STATEMENT OF HON. JOHN CORNYN, A U.S. SENATOR FROM THE 
                         STATE OF TEXAS

    Chairman Cornyn. I woke everybody up, I trust.
    [Laughter.]
    Chairman Cornyn. This hearing of the Senate Subcommittee on 
Immigration, Border Security and Citizenship shall come to 
order. I want to just interject that it is clear we are going 
to have to get some more Federal highway funds for Texas so we 
can make transit to your campus, Dr. Daniel, a little easier. 
We have been delayed a little bit because of traffic.
    The current debate over immigration reform has focused 
exclusively on unskilled illegal immigration. What has been 
neglected is any discussion of high-skilled legal immigration 
and its effect on our country's ability to compete in a global 
marketplace. This issue is relevant because American 
universities, companies, and government entities are waging a 
global battle for talent, and by all accounts, our immigration 
laws and policies place our country at a competitive 
disadvantage.
    The truth is that to retain our economic, technological, 
and military superiority, the United States needs to compete 
aggressively for the world's talent. For the past 60 years, the 
United States has not faced much competition from other 
countries. As a result, high-skilled immigrants have found 
their way to the United States and made remarkable 
contributions to our society. Whether you talk about foreign 
students at Los Alamos 60 years ago or the founders of Intel, 
Yahoo, or Google, immigrants have enriched our economy and made 
the United States more competitive. In fact, almost 20 percent 
of the distinguished scientists and engineers are members of a 
National Academy of Scientists, and more than a third of U.S. 
Nobel laureates are foreign born.
    But the United States is starting to lose ground. A recent 
report of the National Academy of Sciences entitled ``Rising 
Above the Gathering Storm'' should serve as a wake-up call. 
According to that report, China graduates over 200,000 more 
engineers, computer scientists, and programmers than the United 
States. Today, India and China graduate three times and Asian 
countries together eight times as many bachelor's degrees in 
engineering than the United States.
    In the long run, the United States must produce more 
engineers, scientists, and skilled workers. One of every four 
scientists and engineers is foreign born, and half of doctoral 
computer science and math degrees and 60 percent of engineering 
degrees awarded in the United States go to foreign nationals.
    But while we all agree that the United States must 
encourage more of its own high school and college students to 
pursue careers in math and science, we can also all agree that 
that will not happen overnight. And contrary to what some 
critics say, increasing the pipeline of U.S. students in those 
fields while simultaneously making the United States more 
attractive to foreign students and skilled workers are not 
mutually exclusive goals. The fact is our public policy should 
do both. We must train and educate more U.S. students, but we 
must also ensure that there are jobs here in the U.S. for them 
to fill.
    On May 2nd, I introduced what is called the ``SKIL bill,'' 
S. 2691. Since then, a companion bill has been introduced in 
the House. The SKIL bill is designed to address this specific 
problem. It also was accepted as an amendment to the 
comprehensive immigration reform bill passed by the Senate.
    Through changes to our immigration laws, the SKIL bill 
would enable the United States to attract and retain the most 
gifted students and workers from around the world. First, the 
bill exempts any foreign student who has earned a master's or a 
Ph.D. from a U.S. university from both the temporary visa cap 
and the green card annual cap. Why after training and educating 
a foreign student would we force him or her to leave the United 
States, not because they can't find work, but because we have 
imposed an artificial cap on the number of visas?
    Second, the bill creates a floating cap on high-skilled 
visas so that if our economy continues to grow at the pace it 
has over the last few years, our visa policy will adapt with 
it. And as the United States improves the pipeline of domestic 
students and the need for foreign students and workers 
diminishes, the visa limit would adjust as well. The SKIL bill 
also allows foreign students who graduate from U.S. 
universities to start the green card process while they are in 
school. These days, the best students are already working for 
companies during summer breaks and during the school year. If 
they are in demand, we should allow employers to start the 
paperwork as soon as possible.
    Finally, the bill would allow workers who are in the United 
States and who have complied with the law to renew their visa 
here in the U.S. Unfortunately, our current immigration law 
does too little to reward those who comply with the law.
    I remain guardedly optimistic that Congress will pass 
comprehensive immigration reform, and I believe that the 
provisions in the SKIL bill should be included in any final 
bill.
    Let me now introduce our first panel. Today, we are 
fortunate to have panels of distinguished witnesses. The first 
is Dr. Daniel, President of the University of Texas at Dallas, 
our host, and thank you, Dr. Daniel, for hosting this hearing.
    Dr. Daniel previously served as Dean of the College of 
Engineering at the University of Illinois at Urbana- Champaign 
and received a Ph.D. in civil engineering from the University 
of Texas at Austin in 1980 and served on the faculty there 
until 1996. Dr. Daniel is a noted scholar and member of the 
prestigious National Academy of Engineering. He has won the 
American Society of Civil Engineers' highest award for papers 
published in its journals, the Normal Medal, and on two 
occasions has been awarded the second highest award for papers.
    I would also like to congratulate Dr. Daniel on the recent 
announcement by the University of Texas System Board of Regents 
to allocate $27 million for construction of a new facility on 
the University of Texas at Dallas campus that will focus on 
research-based education and mathematics, science, and 
engineering.
    The second witness on our panel is Mr. Bo Cooper. Mr. 
Cooper served as General Counsel of the Immigration and 
Naturalization Service from 1999 to February 2003, when he 
became responsible for the transition of immigration services 
to the Department of Homeland Security. He was the principal 
legal adviser to the INS during two administrations, at a time 
when immigration ranked among the most sensitive issues on the 
national public policy agenda. Mr. Cooper teaches immigration 
law at the University of Michigan Law School and is testifying 
today on behalf of the Global Personnel Alliance.
    Gentlemen, if you would please stand and be sworn. Do both 
of you swear that the testimony you will give today will be the 
truth, the whole truth, and nothing but the truth, so help you 
God?
    Mr. Daniel. I do.
    Mr. Cooper. I do.
    Chairman Cornyn. Thank you. Before we begin, let me just 
say that we would like to make sure we move along relatively 
expeditiously, so I will ask you to limit your statements to 5 
minutes. Your written statement will be made part of the 
record, and then, of course, we will have time for Q&A to flesh 
out any things that are missing. And I will be happy to give 
you an opportunity if you think at the end there are things 
that we have overlooked or that have not been said that really 
need to be emphasized, I will give you an opportunity to do 
that.
    Dr. Daniel, we will be glad to hear your opening statement.

 STATEMENT OF DAVID DANIEL, PRESIDENT, THE UNIVERSITY OF TEXAS 
                  AT DALLAS, RICHARDSON, TEXAS

    Mr. Daniel. Senator Cornyn, thank you so much, and thank 
you for being here at the University of Texas at Dallas. It is 
a real honor for us to host this Senate hearing.
    UT Dallas was created by the same individuals who founded 
Texas Instruments, and it was created because of workforce 
issues. Eugene McDermott, Cecil Green, and Erik Jonsson felt 
that in order to create the workforce that Texas Instruments 
would need in order to develop into the globally preeminent 
company that it is, it would simply have to have homegrown 
talent in order to be able to accomplish that. So they created 
a graduate research institute that later became part of the UT 
system. Their vision, as I have heard it stated, is that we 
might 1 day become the MIT of the Southwest. Well, we have a 
ways to go to get there, but I feel that our first steps are 
very much along that pathway consistent with that spirit.
    Eighty percent of our graduates from this institution major 
in science, engineering, mathematics, or business. So we feel 
that we are producing exactly the kind of talent that this 
region, this State, and this Nation needs to remain vital, 
healthy, and competitive.
    The Dallas-Fort Worth Metroplex, despite being one of the 
largest and most economically productive metropolitan areas 
anywhere, does not have a true world-class research university 
outside of the medical field. We do have UT Southwestern 
Medical Center, which is a preeminent graduate medical research 
facility, but on the academic side, we have a ways to go to 
grow UTD and the other area institutions to that top tier.
    We are thrilled that the UT system announced recently an 
unprecedented investment of $2.56 billion to boost 
competitiveness in key scientific areas, which includes the new 
building for UT Dallas, Senator, that you mentioned earlier.
    We are an institution focused on the very best talent 
within these areas of science, engineering, business, and 
complementary fields, such as arts and technology. We are 
working extremely hard to increase the pipeline of local 
students, and in my written statements, some of those programs 
are described. I will just highlight very briefly two of them.
    One is our nano explorers program, which brings about 20 
high school students per summer into our nanotechnology labs, 
suits these kids up in spacesuit-like equipment, and pins them 
as nano explorers. Actually, Professor Ray Bockman, who is just 
an incredible scientist, did this because as a child his dad 
took him into one of these science labs, and he later became 
one of the Nation's preeminent scientists. So we are very proud 
of that program.
    We have an academic bridge program which reaches out to 
folks principally in the Dallas Independent School District who 
would not normally think that they are college track, and 
certainly their SAT scores would not automatically sing out to 
the world that ``I am going to be successful in college.'' But 
we take about 30 of these kids under our wing every year, and 
the most remarkable thing is that the graduation rate of these 
students is about 80 percent. So we bring them into the 
university and we graduate them. We have an outstanding science 
and math education program and are just working diligently to 
try to increase that pipeline.
    We do want to continue to attract the very best talent from 
around the world. Every major U.S. university depends on a few 
of those smartest people from anywhere in the world to sustain 
our position of strength as an internationally competitive 
university.
    So, with that as opening remarks, Senator, if you have any 
questions, I would be delighted to answer them. Thank you for 
the opportunity to address the Committee.
     [The prepared statement of Mr. Daniel appears as a 
submission for the record.]
    Chairman Cornyn. Thank you, Dr. Daniel.
    We will now hear the opening statement of Mr. Cooper. Thank 
you for joining us.

STATEMENT OF BO COOPER, FORMER GENERAL COUNSEL, IMMIGRATION AND 
NATURALIZATION SERVICE, ON BEHALF OF GLOBAL PERSONNEL ALLIANCE, 
                        WASHINGTON, D.C.

    Mr. Cooper. It is my pleasure, Mr. Chairman. I appreciate 
the opportunity to testify, and the Global Personnel Alliance 
especially appreciates the leadership that you have shown in 
connection with this issue, both in stewarding the SKIL bill 
and in having us here and in making sure that focus stays on 
this critical issue of the way that our immigration policy has 
got to be shaped to serve our National competitiveness goals.
    Our high-skilled immigration policy, despite this key 
principle, has not been meaningfully updated in over a decade 
and a half. It has fallen years out of alignment with our 
country's economic and educational needs. There is not a 
sufficient path into the university, from the university to the 
workplace, and there is a severe shortage of professional visas 
and of green card slots for the most highly skilled. And other 
countries are watching this, and they are moving in exactly the 
opposite direction. They are shaping their immigration policies 
so that they attract into their schools and into their 
workforces the very people, the best and brightest in key 
fields from around the world, that we ought to be trying with 
all of our might to attract into our workplace.
    Let me try to highlight some of the key issues that arise 
at each stage of the process, beginning briefly with the 
student visa process. Getting the best students to come and 
study in our schools is one of the most effective ways we can 
find to attract the best scientists, doctors, researchers, and 
other professionals into our workplaces. But because of delays, 
because of outmoded requirements regarding long-term intentions 
after graduation, and inadequate time for post-graduate 
practical training, that goal is being interrupted, and other 
countries are viewed as having immigration policies that are 
more welcoming and more friendly. And faced with this choice, a 
lot of the world's best students are choosing to go elsewhere.
    These kinds of problems can become even more acute in the 
recruitment of highly skilled professionals, both from outside 
the U.S. and from inside of the country. The H-1B visa, of 
course, the key and also the only visa available for high-
skilled professional assignments, is dispensed according to a 
formula that is badly out of sync with our Nation's needs. It 
was only 5 years ago set at 195,000, and every year since, it 
has dropped, in 2004 to 65,000. That cap has been hit earlier 
and earlier each year, and this year we set a new low by 
running out of H-1B visas 4 months before the fiscal year even 
began. That faces employments with a staggering 16-month period 
without access to the most highly skilled professionals.
    This mismatch between immigration policy and our 
competitiveness goals is most often seen in the public debate 
from the perspective of the tech sector, and this is certainly 
a very important perspective because the high-tech sector has 
exemplified the way that innovation can feed the economy and 
create American jobs. And it also has exemplified the way that 
mixing foreign and U.S. intellectual talent can lift or even 
create industry in this country. But the problems that are 
faced because of our immigration policies are not at all 
confined to the tech sector, and they reach to hospitals, to 
schools, to businesses of all sizes and across the range of 
industries.
    I would like to quickly offer one example from the 
manufacturing sector. This example involves a manufacturer of 
business jets. A major U.S. employer, they have thousands of 
U.S. employees. Of these thousands, only a handful--a few of 
them, about 2 percent--are foreign national workers here on 
visas, and this company is desperately in need of aerospace 
engineers, and they cannot find enough of them in this country. 
This spring, fresh off of a very significant hire of the 
engineers they could find in this country, they still had not 
met their needs. But they identified a complement of about 30 
highly skilled engineers--by the way, from a competitor company 
outside the U.S. But it was May, and they knew they were racing 
the clock. The Friday before Memorial Day, the Government had 
announced that there were only 12,000 H-1B visas left. So over 
Memorial Day weekend, there was a team of people preparing H-1B 
visa petitions for this group of aerospace engineers, getting 
ready to file them the next week. And, lo and behold, the next 
week arrives and the announcement is made by the Government 
that the H-1B visa supply had actually run out the Friday 
before and no more petitions could be accepted for H-1B until--
October of 2007 is the next time an H-1B can begin work.
    In this case, there is no alternative hiring strategies 
possible. They have already hired all the U.S. engineers they 
could, and so the result is that they are simply left without 
enough people to succeed and to compete as effectively as they 
need to. And there could not be a more stark example of the H-
1B program actually failing its policy goal. When companies 
cannot recruit the talent they need, the cap impedes 
production, it diminishes competitiveness, and it stunts U.S. 
job growth. The problem are just the same in connection with 
the green card process, and those problems are very, very well 
documented.
    Wrapping up, Mr. Chairman, effective professional 
immigration reform is in reach. You have already, with your 
colleagues, devised a very effective solution. There appears to 
be strong bipartisan support for high-skilled immigration 
reform, and there appears to be essentially unanimity that 
high-skilled immigration reform is a net benefit to the U.S. 
economy. But the longer this reform is delayed, the more 
seriously we risk sliding backward in our efforts to maintain 
global competitiveness.
    Thank you very much.
     [The prepared statement of Mr. Cooper appears as a 
submission for the record.]
    Chairman Cornyn. Mr. Cooper, let me start with what some of 
the critics say, and I would like for you to sort of clarify or 
maybe correct some of the misimpressions that have been 
mentioned during the course of Senate hearings on the Judiciary 
Committee about the impact of lifting the cap on H-1B visa 
workers.
    First of all, can you tell us whether an H-1B visa worker 
can be paid less than an American worker? In other words, can 
companies go out and low-ball the pay of a foreign worker and 
get him in the country to displace an American worker with 
impunity?
    Mr. Cooper. No, that is not at all possible, Mr. Chairman. 
The program is set up with some pretty strict requirements to 
ensure that the U.S. workforce is protected. Chief among those 
is the obligation of the employer to pay either the prevailing 
wage for the kind of job in the area that is being offered or 
the actual wage that that employer pays to its similarly 
situated employees, whichever of those two things is higher. 
And often in practice that actual wage is, especially in these 
key fields where recruiting is so difficult, significantly 
higher than the prevailing wage because that is what market 
forces call for. And when that is the case, it is that actual 
wage that has got to be paid to the H-1B. And an employer fails 
to do so at significant peril. The Department of Labor has 
important enforcement authority and may exercise those 
enforcement authorities, and employers can face back-pay 
obligations, penalties, debarment from using the immigration 
system--obviously a key penalty--as well as just the public 
relations difficulties that can face someone who does not abide 
by program requirements.
    Chairman Cornyn. Well, based on your answer--and you answer 
accurately describes my understanding of the law--there seem to 
be a number of urban myths related to this whole issue.
    Dr. Daniel, I think you told me earlier that you believe 
that market forces have the best impact over and above the law 
in terms of making sure that American workers are not displaced 
in favor of foreign workers under an expanded H-1B visa policy. 
Could you expand on that, please?
    Mr. Daniel. Yes, Senator Cornyn. I have been an engineering 
professor for 26 years and have had dozens and dozens of 
graduate students, many domestic and some foreign. Often 
professors wind up working closely with these students and 
matching up students with companies, and it has universally 
been my experience that I see no difference in the salary 
packages offered to the students, whether they are domestic or 
international. And the students usually come to me and sort of 
check in and make sure the salary offer is a fair and a 
reasonable one. And I have just never in any instance 
whatsoever seen that be a factor.
    The companies need the best talent, and they are going to 
pay prevailing wages. They have to. That has been my 
experience.
    Chairman Cornyn. Mr. Cooper, let me ask you another 
question about the impact of the H-1B visa on American 
companies and American competitiveness and the ability of the 
United States to train native-born citizens and other 
naturalized citizens in these critical areas.
    My understanding is that U.S. companies have paid more than 
$1 billion in fees that have funded more than 40,000 
scholarships for U.S. students in math and science. These fees 
obtained from employers as part of the H-1B process have funded 
hands-on science programs for 75,000 middle school and high 
school students and 3,000 teachers. And, finally, more than 
55,000 U.S. workers and professionals have received training 
through the H-1B fees paid by companies.
    Is that information consistent with your understanding of 
the fees paid by companies as part of the privilege of having 
H-1B visas?
    Mr. Cooper. That is exactly right, Mr. Chairman. That was 
an effective reform to the H-1B program not so long ago based 
on the notion that users of the system that works to import 
talent from abroad ought also to contribute to the boosting of 
talent within this country. And so it is entirely appropriate 
that employers pay a reasonable fee in this connection. It is 
actually fairly substantial right now, $1,500 per petition in 
most instances. And that generates huge sums, as you were 
describing, somewhere in the neighborhood of $125,000 per year 
at current levels. Of course, if the H-1B program were 
recalibrated to meet needs and, therefore, the supply 
increased, that number would only increase accordingly. So that 
is a very important way in which the program is structured to 
also serve a different but related goal, that is, boosting the 
education and abilities of U.S. workers.
    On top of that formal structural system for calling on the 
participation of H-1B users, I think it is important also just 
to go back to the market forces that Dr. Daniel was talking 
about. Companies realize that it is just as important for them 
to be able to have a key pool, a very strong pool of U.S. 
talent in key fields, and so, very independent of these 
structural requirements of the H-1B program, tend to invest 
enormous resources in outreach to universities and outreach to 
students trying to encourage people to go into sciences, 
engineering, mathematics, putting in place programs to provide 
technological abilities at higher level to students at K-12 and 
universities. And so that takes place very, very frequently 
just in the private environment when companies themselves, 
independent of the H-1B program requirements, are trying to 
serve this very goal of raising the knowledge and the 
educational levels of U.S. students.
    Chairman Cornyn. Dr. Daniel, as Mr. Cooper said, there is a 
lot going on, other than what the Federal Government is doing 
to encourage what we call homegrown experts in math and 
science, engineering and technology. Have you seen the fees 
from H-1B visas to be an effective supplement to help pay for 
or defray some of the costs for training of American citizens 
or naturalized citizens who are studying in these key areas? 
And maybe you could expand a little bit on how you see these 
working in a complementary fashion if, in fact, you believe 
they are?
    Mr. Daniel. Senator, I do not have any personal experience 
with those fees, but what I do have experience with is just 
simply confirming that U.S. companies and corporations are 
pouring substantial dollars into assisting through scholarships 
and fellowships, summer internship programs, growing our own, 
if you will. They are highly motivated to have a diverse 
workforce, as I am sure Mr. Ritter and others will be able to 
testify today. And so it is simply the reality that massive 
efforts are being made on their part to try to increase the 
pipeline.
    Chairman Cornyn. Recently, the National Academy of Sciences 
issued a report that I alluded to in my opening remarks called 
``Rising Above the Gathering Storm: Energizing and Employing 
America for a Brighter Economic Future.'' And as you both no 
doubt know, this is focused largely on how we can improve math 
and science education in America, encourage more students to 
study in those areas, encourage more teachers and better 
teachers to teach in those areas, to maintain America's 
competitive edge. And this report--again, issued by the 
National Academy of Sciences, the National Academy of 
Engineering, and the Institute of Medicine--is focused 
primarily on how we can increase our domestic resources when it 
comes to this necessary component of our competitive edge. But 
it also speaks specifically to the issue of the H-1B visa, and 
on page 7 of the report, where it is entitled ``Best and 
Brightest in Science and Engineering Higher Education,'' one of 
the actions encouraged by this report was to continue to 
improve visa processing for international students and 
scholars. And I want to come back to you in a moment, Dr. 
Daniel, and ask you about your experience with the Federal 
Government's processing of visas for international students and 
scholars.
    But it also proposes to provide a 1-year automatic visa 
extension for international students who receive doctorates or 
equivalent degrees in science, technology, engineering, 
mathematics, or other fields of national need at qualified U.S. 
institutions to remain in the United States to seek employment. 
It includes also, in addition to other recommendations, a new 
skills-based preferential immigration option.
    Let me direct this to you, Dr. Daniel. I have been told 
that post-9/11, because of some of the more restrictive visa 
policies of the U.S. Government in the effort to protect our 
national security and avoid the scourge of international 
terrorism, it has actually created impediments to foreign 
students in some cases coming to the United States and foreign 
scholars coming to the United States for meetings and the like, 
and that our competitors in a global economy, other nations 
that would love to have these foreign students come there and 
study in their universities, and then live and work there and 
help stimulate and grow their economy, that this has actually 
worked to the disadvantage of the United States in our 
competitive global environment.
    Could you share with the Committee your experiences in that 
area?
    Mr. Daniel. Yes, Senator Cornyn. There has been a very 
noticeable change since 9/11. I am sure, as you are aware, 
graduate student applications in the U.S. from international 
students are down significantly, roughly one-third. Our 
international student population here at UT Dallas is down a 
bit.
    But I think the most significant aspect is really just what 
you described: the very brightest and smartest people that we 
want to be thinking about coming to the United States find it 
very difficult to navigate through the visa process, and as a 
result, they are turned off, if you will, to the prospect of 
coming to the U.S.
    I remember I had a delegation a few months ago from a 
Chinese university that came to talk with us about academic 
collaboration, the exchange of students, and so forth. And only 
about half of the delegation managed to get visas to come and 
visit with us. And so I was immediately in the position of 
apologizing to the delegation that they were only half of their 
intended strength with no apparent rhyme or reason that I could 
tell why those who did come were able to get visas and those 
who did not come were not able to.
    The unfortunate reality, further, is that although 20 years 
ago the best and brightest international students principally 
had the U.S. to look to, to go to the best universities in the 
world, Australia is working adamantly to upgrade their 
universities. Singapore truly wants to outflank us in 
attracting the best and brightest in the world to their 
universities. And those institutions, just as Mr. Cooper said, 
and those countries are setting up practices, I think, to take 
advantage of our current weakness in this area. And I think the 
real public policy question is: Is it in the best interest of 
the U.S. to turn the best and brightest throughout the world 
away from the U.S. and hand them over to other countries? And 
my feeling as a university president is it is just a horrible 
public policy decision. We want those people here to elevate 
our university, to elevate the intellectual climate, to sustain 
our position of international preeminence, and to feed into our 
society the talent that we need. And it has just, since 9/11, 
in that regard been going backwards.
    Chairman Cornyn. Well, thank you, Dr. Daniel. I know in the 
audience today we have some of my caseworker staff who work 
hard to help navigate the bureaucracy when there are speed 
bumps and other impediments to issuing the visas to people who 
should be--who are not a national security threat and who 
should be receiving those student or travel visas in the case 
of international scholars. And we are glad to help, but we want 
to also note where the impediments are that perhaps are written 
into the law or otherwise need to be dealt with.
    Let me ask to follow up one more question to you, Dr 
Daniel, before I turn to another question for Mr. Cooper. The 
President's American Competitiveness Initiative proposes new 
Federal support to improve the quality of math, science, and 
technology education in our K-12 schools. What obstacles stand 
in our way of really improving the quality of our children's 
education in math and science in your view?
    Mr. Daniel. Senator Cornyn, that is an excellent question. 
It is a very deep issue. I think the two that come to mind 
first are the training and qualifications of schoolteachers in 
the U.S. in mathematics and science. Statistics show that a 
surprisingly large fraction of our math and science teachers 
are not actually trained in mathematics and science. And what 
we genuinely need to do is inspire kids who have the talent and 
ability in math and science to pursue that field, not to turn 
them off.
    So the training of teachers I think is the foundation 
block, but I think just the message that we as a society and 
Government send to our young people about the importance of 
math and science becomes crucial as well. Government programs 
that help and partner with industry and with educational 
institutions to provide support and structure to send the 
message that these are great fields to go into and structures 
it in a way to engage and interest students I think are exactly 
the rights kinds of programs to try to get not only at the 
substance of what takes place in the classroom but the spirit 
and inspiration that causes students to want to pursue those 
fields.
    Chairman Cornyn. Mr. Cooper, one thing that does not make 
sense to me is the foreign student who graduates from a U.S. 
university and then takes a job with a U.S. company is required 
to switch to a temporary visa, and only then after the student 
has switched to a temporary visa can the employer start the 
green card process. Why, if we know the student will stay in 
the U.S. and that the student has a job from an employer, would 
we require the student to go on a temporary visa? Does that 
make any sense to you? And if not, what policy would you 
recommend that we change?
    Mr. Cooper. I could not agree more, Mr. Chairman. First of 
all, I think that if the temporary visas were--I mean, if the 
temporary visas were more adequately available, then you would 
not have as severe a problem as we see now. But I agree with 
you entirely that it makes much more sense to have a direct and 
streamlined route right from the universities and into the 
workplace for the long term if that is what the employer knows 
best serves that employer's interest and if the student has the 
skills that are required for qualification for whatever the 
long-term visa classification is.
    And I think that the recipe that is in the SKIL bill for 
that is a very effective one, is a very simple one. That 
expands the time after graduation that the student can stay 
here for practical training and look for a job, and it on the 
other side makes it easier to link into and apply right up 
front for permanent residence, once the employer- employee 
relationship that is going to bring that student into the U.S. 
workforce has been identified. It is a very simple solution, 
and I think it is one that you should continue to push for.
    Chairman Cornyn. I think one of the things that frustrates 
the American people and certainly my constituents here in Texas 
when I talk to them--or listen to them, maybe is more the 
appropriate way to frame it--about immigration is that they 
seem to be focused almost exclusively on illegal immigration 
and low-skilled, relatively low- education immigrants coming 
across our Southern border at the rate of maybe 500,000 or so a 
year. Currently, estimates are that we have as many as 12 
million undocumented immigrants here in the United States. And 
it strikes me as ironic that we have, by virtue of the failure 
of the Federal Government to deal effectively with border 
security and our immigration system, we have virtually 
uncontrolled or, let's say, at least massive illegal 
immigration by low-skilled workers, and we put a cap of 65,000 
a year on high-skilled workers who are never likely to be a 
drain on our economy, never access our service system, but 
instead are likely to create wealth and opportunity and jobs 
for the American people.
    How did we get in that condition, Mr. Cooper? You have been 
involved in the immigration system and debate, and certainly on 
behalf of two separate administrations. How did we get into 
this mess?
    Mr. Cooper. I think a key part of it is losing sight of the 
basic principle that your immigration policies ought to serve 
what you identify as your various national goals. And I think 
that the failure to keep an eye on that is what has led, in 
large part, to the inability in today's debate to distinguish 
what kinds of issues are important and what kinds of solutions 
are appropriate to the question of controlling migration and 
what to do with the people who have already become a part of 
the U.S. workforce, et cetera. And then the very different 
question of how is it that high- skilled immigration policies 
will serve our economic needs and serve our competitive needs. 
And I think examples of the mismatch abound every single day.
    Just yesterday, in connection with our education goals, I 
happened, totally unconnected with preparation for this 
hearing, to be in touch with a teacher who is Chinese. She has 
just graduated with a specialty in bilingual special education 
from George Washington University, and I was put immediately in 
mind of the national goals that have been identified in 
connection with bilingual education.
    This year the President announced a $114 million initiative 
called the National Security Language Initiative. The principle 
is that we as a population in the U.S. ought to have better 
skills in key languages--Arabic, Chinese--both from the 
national security standpoint and from the competitiveness 
standpoint.
    And so here is a person who falls exactly into the needs 
that would meet those goals, yet our immigration policies are 
not set to meet those needs. You cannot find the teachers in 
this country to be able to teach those languages to our 
students. And here is the very person who falls right into that 
category of needs, yet because of the kinds of policies that 
you described that restrict practical training post-graduation 
and that do not offer enough--that require someone to have a 
temporary professional visa and then do not offer enough of 
those, it is just a block on our ability to incorporate into 
our workforce someone who we need specifically to meet a 
clearly identified national goal. And I think that that failure 
to match immigration policy with other national goals is what 
contributes to the mismatch you were describing.
    Chairman Cornyn. Dr. Daniel, from your perspective, what I 
would translate what Mr. Cooper said or reduce it to in just 
sort of a word or two is that we ought to have an immigration 
policy that reflects our National interests. Do you have any 
quarrel with that formulation or that approach?
    Mr. Daniel. No, sir. I think you have put it perfectly.
    Chairman Cornyn. Well, I think it is important, and one of 
the purposes of this hearing is to make sure that the people in 
this State, certainly people in North Texas who might be paying 
attention to the immigration debate, are informed that it is 
more than just low-skilled workers who are coming across the 
border. Obviously, we have to deal with that issue in a way 
that reflects our National values, and also the fact that there 
are many jobs, I am told, that American companies, employers 
cannot find a sufficient workforce for, both at the high end 
and relatively low end of the education and skill range.
    But we will continue to persevere in the U.S. Congress. My 
hope is we will be able to work out the differences between the 
Senate bill and the House bill. But the testimony that both of 
you have provided has been enormously helpful and enlightening 
with regard to dealing with the H-1B visa issue. It should be 
an issue where people of good will and common sense could come 
together and find a solution, even in the absence of a 
comprehensive immigration reform bill. But my hope is that it 
is part of that comprehensive reform that will deal with our 
National security interests, will deal with the interests of 
our economy, and will deal with the issue of global 
competitiveness.
    I mentioned yesterday, as Dr. Daniel knows, at the American 
Electronics Association Forum on International Competitiveness 
that the Federal Government is taking some bold steps, the 
Congress is, on this issue in terms of global competitiveness 
to deal with both the domestic homegrown scientists and 
mathematicians and engineers as well as the H-1B visa issue 
through what is called the PACE legislation, Preserving 
America's Competitiveness.
    The good news is that it has bipartisan support in the U.S. 
Congress, which is always essential to getting good policy 
passed, and my hope is that very soon upon returning after our 
August recess, or hopefully, if not then, in January, we can 
move to provide many of those incentives that, Dr. Daniel, you 
in particular said we need in terms of encouraging teachers and 
certainly students to study in this area. And that will 
complement the work we have been able to do on immigration 
reform, particularly with H-1B visas.
    With that, let me say to both of you, thank you for your 
contribution, very valuable contribution. I appreciate that 
very much.
    We are going to take about a 5-minute recess while we set 
up the table for the next panel.
    [Recess.]
    Chairman Cornyn. Before I introduce our next witnesses, I 
want to offer into a record a letter from the president of the 
Greater Dallas Chamber regarding this particular issue. It can 
be easy when we talk about a national and international issue 
to forget that it will be the local communities here in Texas 
and elsewhere that will suffer from our failure to act. She 
correctly notes that if the United States does not want the 
best scientists and engineers the world has to offer, plenty of 
other nations do. And this letter will be made part of the 
record, without objection.
    Our next panel is a distinguished panel that I will now 
introduce, starting with Mr. Philip Ritter from Texas 
Instruments. Mr. Ritter is Senior Vice President and Manager of 
Public Affairs for that company. He has global responsibility 
for the firm's public affairs activities, including government 
relations, philanthropy, and community affairs. Mr. Ritter 
started with Texas Instruments in 1989 in the company's law 
department as counsel to a variety of the company's businesses.
    Our next witness is Phyllis Norman. Phyllis Norman is the 
Vice President of Patient Care Services for Harris Methodist 
Fort Worth Hospital. She is responsible for planning, 
organizing, directing, and evaluating nursing care and other 
clinical operation services in this 710-bed tertiary care 
hospital. In addition to being a registered nurse and a 
certified nursing administrator, she holds a master's of 
business administration in health care administration.
    Our next witness, our third witness, is Mr. Lance Kaplan. 
Mr. Kaplan is a partner with the global immigration firm of 
Fragomen, Del Rey, Bernsen, and Loewy. Previously, Mr. Kaplan 
was a partner responsible for global immigration services for a 
Big Four accounting firm. He has extensive experience with the 
immigration laws and policies of other countries and could 
perhaps give us a broader perspective on what other countries 
are doing to better compete for the same pool of skilled 
workers.
    Before I turn to Mr. Ritter, let me just acknowledge the 
presence of members of the immigration staff of Senator Kennedy 
and other members of the Immigration Subcommittee. Senator 
Kennedy is the Ranking Member on the Subcommittee, and I think 
it is fair to say he has a lot of interest in the topic we are 
talking about today and has been a forceful advocate for 
comprehensive immigration reform in the United States Senate.
    I also see a former member of my staff, Tiffany Thibodeau, 
who is now with the Department of Homeland Security. So there 
are a lot of folks paying attention to what is going on here 
today, and we trust we will be edified by the testimony of the 
second panel, as we have been by the first.
    Mr. Ritter, let me turn to you for your opening statement.

   STATEMENT OF PHILIP J. RITTER, SENIOR VICE PRESIDENT AND 
  MANAGER OF PUBLIC AFFAIRS, TEXAS INSTRUMENTS, INC., DALLAS, 
                             TEXAS

    Mr. Ritter. Well, thank you, Senator Cornyn. I appreciate 
you inviting me to discuss an issue that is critical to the 
competitiveness of U.S. business, and that is access to top 
talent. Competitiveness is our top public policy priority at 
Texas Instruments, and we support the President's American 
Competitiveness Initiative, which calls for increased 
investments in basic research, making the R&D tax credit 
permanent, improving math and science education, and ensuring 
better access to skilled professional, including highly 
educated foreign nationals.
    Your hearing today highlights this last item and the need 
to update it and reform our deeply flawed immigration laws, 
specifically those pertaining to highly educated foreign 
professionals. Like you, we are advocates for change in this 
area. And on that note, I want to thank you for your leadership 
in bringing forward the SKIL bill, legislation which we believe 
will go a long way toward addressing these deficiencies. The 
United States benefits when foreign-born scientists, doctors, 
teachers, engineers, and entrepreneurs live and work in this 
country.
    I would like to highlight three points this morning:
    First, the United States' long-term competitiveness is tied 
to the intellectual brain power of its people, and particularly 
people in the science and engineering workforce, and, 
unfortunately, the U.S. is not producing enough American-born 
professionals to meet the demands in these fields.
    Second, we always want to have access to the best talent in 
the world, but building a domestic pipeline of scientists and 
engineers must be a national imperative, and there are some 
very interesting things going on in that area in this region, 
as you know.
    And, third, access to talent is not just about more H-1B 
visas. It is also about green card reform that ensures that 
foreign nationals can remain in the United States with their 
families and build their careers here.
    On the first topic, the United States' science and 
engineering workforce, whether it is Tom Friedman, Norm 
Ornstein, the National Academy of Sciences, or whatever, the 
verdict is in. We face significant challenges in developing, 
attracting, and retaining an adequate science and engineering 
workforce. We know that more than half and in some disciplines 
two-thirds of the advanced degrees awarded by U.S. universities 
in science and engineering are earned by foreign nationals. Due 
to a number of factors, we also know that fewer U.S. students 
are choosing to study in these fields. And despite this grim 
reality, U.S. businesses, companies like TI, must compete and 
succeed in a highly competitive global market.
    For example, TI is highly dependent on electrical engineers 
and computer scientists. When we recruit at Texas schools, we 
find upwards of 70 percent of the master's and Ph.D.'s in the 
EE field are awarded to foreign nationals. We need access to 
that talent. If we don't have access to that talent, we cannot 
grow our job base and invest here in the U.S. And it is the 
same situation for our competitors, and it is a constant 
scramble.
    Building the domestic pipeline. We always want to tap the 
world's best and brightest, especially in this global economy. 
But there is no doubt we must do more here in the U.S. to build 
an indigenous pipeline of talent. In fact, our company's 
primary philanthropic and volunteer efforts are in furthering 
and enhancing the math/science education pipeline at all grades 
and at all levels, and you have in the record an inventory of 
several of TI's education initiatives.
    What I would point out specifically is something that is 
known around here at Project Emmitt, and about a mile and a 
half down the road from here, we just finished construction on 
a building that will eventually be a $3 billion advanced 
semiconductor manufacturing plant, and we went through a site 
selection process a couple years ago, trying to decide where we 
were going to build that, and we basically had two issues: 
Number one, would it be cost competitive to build here? And, 
number two, would we have access to the talent and the climate 
for innovation that we needed?
    We pointed out a deficiency which Dr. Daniel noted earlier, 
that this region lacks a top engineering school, and we asked 
the State of Texas to do something about it if they expected to 
attract that investment. Well, the State of Texas made a $300 
million commitment to the J. Erik Jonsson Engineering School, 
primarily in the graduate research area, to improve the number 
of faculty and students that will be studying here in 
engineering, especially electrical engineering. And that was a 
key factor in our decision to make that $3 billion investment 
here in the U.S. and in this community.
    The Federal Government clearly has a role in making math 
and science proficiency a national imperative and to ensure the 
next generation of scientists and engineers. The President's 
Math Now, Advanced Placement, and Adjunct Teachers programs, 
which we strongly support, are important tools in reaching that 
goal, and finding enough qualified math and science teachers in 
high schools is one of the greatest challenges we face in 
addressing this issue.
    Finally, on green card reform, as you know, the Government 
has already exhausted the H-1B visa quotas for the next fiscal 
year as well as the additional 20,000 visas available for 
students graduating with advanced degrees from U.S. 
universities. There is no question that more visas are needed, 
and we strongly support the provisions in the SKIL bill that 
not only raise the H-1B cap but also exempt altogether 
professionals who have earned a master's degree or higher. From 
TI's point of view, why would we send these graduates home to 
compete against us, compete against our company? It makes 
absolutely no sense.
    Equally important in the bill's provisions are those that 
update the employment-based visa or the green card program. 
They will provide additional visas and generally exempt 
individuals with these degrees. A majority of scientists and 
engineers earning advanced degrees from U.S. universities are 
foreign born. Many of them wish to stay here with their 
families and establish their careers. We have got about 12,000 
employees and about an equal number of contractors who work at 
TI's operations in North Texas. I have the privilege of serving 
as the executive sponsors of the Indian Diversity Initiative at 
TI. We have got about 600 TI'ers of Indian descent who work in 
our operations, and I tell you, their contributions to our 
business success is absolutely critical, and they are 
delightful bunch of people to work with.
    So, in short, the goals and objectives of the SKIL bill are 
critically important, and, Senator Cornyn, I really want to 
thank you for your leadership on this and urge you to strongly 
secure some relief on this high-end visa issue this year.
    Thank you very much.
     [The prepared statement of Mr. Ritter appears as a 
submission for the record.]
    Chairman Cornyn. Thank you, Mr. Ritter.
    Ms. Norman, we would be glad to hear from you.

   STATEMENT OF PHYLLIS NORMAN, VICE PRESIDENT, PATIENT CARE 
  SERVICES, HARRIS METHODIST FORT WORTH HOSPITAL, FORT WORTH, 
                             TEXAS

    Ms. Norman. Thank you, Senator. I do appreciate the 
opportunity to talk with you today about my thoughts on the 
SKIL bill, S. 2691, particularly as it relates to recruitment 
of foreign nurse graduates.
    As you mentioned, I am the chief nursing officer at a large 
tertiary care facility, and one of my primary responsibilities 
is to be sure that we have enough registered nurses to provide 
the services that the hospital provides within its walls and 
out in the community.
    The health care industry is facing a number of challenges 
as we are beginning to deal with an ever aging population, an 
increase in obesity, and the development of chronic health 
problems that require more and more services, and services 
provided by registered nurses.
    Currently, the United States cannot produce the number of 
qualified registered nurses that it needs. Texas alone in the 
year 2010 will need 40,000 more nurses than will be available. 
It is predicted that by the year 2020 there will be a shortage 
in this country of 1 million nurses. This is due to a variety 
of factors. There are many other careers that are more 
attractive than nursing these days, especially for women. There 
is a shortage of faculty to train nursing students. And the RN 
people is aging; the average age is 46 years old, and people 
are opting out of the profession in large numbers at an earlier 
age than most other occupations.
    A lot is being done at the institutional level, the State 
and local and Federal level, but funding is really inadequate, 
and the lead time to make much improvement is too long to have 
an immediate impact. We are really on a collision course with 
the growing patient care needs that makes the availability of 
qualified immigrant nurses so critical for us.
    It is estimated that 15 percent of the new nurses licensed 
in this country each year are foreign graduates--15 percent. 
Any interruption of their availability will have an immediate 
effect on the health care industry.
    We did have such an interruption in 2005 when visa numbers 
for skilled employment-based immigrants were oversubscribed and 
a waiting list was established for those largest sending 
countries--China, India, and the Philippines. The effect was a 
3-year hold on admissions of these immigrants. While other 
categories of skilled workers were affected other than nurses, 
most of those employees were already in the United States and 
could continue to work until their green card were issued. 
Nurses do not have such a temporary work category, so they had 
to wait abroad for this condition to be lifted. Luckily, 
through the initiative of the American Hospital Association and 
the leadership of your colleague, Senator Kay Bailey Hutchison, 
Congress was persuaded to ``recapture'' 50,000 visas that were 
unused from prior years and apply them to nurses as well as 
physical therapists. However, the pool is drying up and 
expected to dry up by November possibly. More than half of 
these have been used to accommodate the dependents of the 
workers.
    This time the waiting list will not be limited to those 
three countries but will be expended to all countries. And 
instead of a 3-year delay, this will stretch out to 5 years. 
Imagine losing 15 percent of the new nurses in this country 
each year for a 5-year period. We are talking about 75,000 
nurses that will be affected. Hospitals and their patients 
really cannot take this kind of hit.
    Luckily, there is a ready solution, and your excellent SKIL 
bill addresses the problem along with providing many 
improvements to employment-based, legal immigration. It does so 
by taking registered nurses and physical therapists out from 
under the annual worldwide cap for skilled workers. It does so 
based on the existing designation by the Secretary of Labor as 
``shortage occupations'' for registered nurses and physical 
therapists, thereby allowing them to receive blanket labor 
certification. Should other measures improve the domestic 
supply, these professions would go back under the caps. 
Therefore, there is really no danger of flooding the market 
with unneeded immigration.
    We face a crisis within the next few months, and we urge 
Congress to pass the SKIL bill, either as part of the 
comprehensive immigration reform, as a separate bill, or as a 
rider to a year-end spending measure. Whatever the procedure, 
the remedy is needed now.
    I want you to picture what happens when we do not have 
enough registered nurses. We close hospitals beds. Sometimes 
small communities close their hospital entirely. We have 
overcrowded emergency rooms, delayed treatment, elimination or 
reduction of needed services, and occasionally denied access to 
patients who really need the care. We need your help, and we 
appreciate the work that you are doing on this.
     [The prepared statement of Ms. Norman appears as a 
submission for the record.]
    Chairman Cornyn. Thank you very much for your opening 
statement, Ms. Norman. We appreciate that.
    Mr. Kaplan, we would be glad to hear from you.

STATEMENT OF LANCE KAPLAN, PARTNER, FRAGOMEN, DEL REY, BERNSEN, 
LOEWY, LLC, ON BEHALF OF THE AMERICAN COUNCIL ON INTERNATIONAL 
                 PERSONNEL, ISELIN, NEW JERSEY

    Mr. Kaplan. Thank you, Senator. We appreciate the 
opportunity to testify before you today. I am here on behalf of 
the American Council on International Personnel, which is an 
organization which represents nearly 200 in-house immigration 
professionals at America's leading corporations, and I strongly 
concur with both your opening comments and also the comments of 
all of the other witnesses here today, wherein everybody has 
clearly identified that the United States faces a talent 
shortage and our current system clearly does not have the 
ability to recruit and retain the brightest and the top talent 
that we need in order to remain competitive in our environment.
    The perspective that I bring today is to try and show 
yourself as well as the Committee what other countries are 
doing versus what we are doing, and the reality is that 
historically the United States has really had a program which 
has been followed by other countries. As technology has 
advanced and as countries have advanced, they have recognized 
the need to change immigration laws to facilitate the 
introduction of talent into their economies, both at the 
student level as well as temporary and permanent personnel 
moving in to work within the corporations.
    Unfortunately, here in the United States, I think that we 
have not adjusted as quickly as we should have, and so what I 
would look to do today is just focus on a number of countries. 
As an example, my written testimony contains more detail, but I 
will focus primarily today on Australia, the United Kingdom, 
and Canada, but primarily Australia.
    Australia has adopted a particular approach to immigration 
which is slightly different from what we have done here. In the 
first instance, what they have done is they have undertaken 
formal studies which document the benefit of immigration, and 
they have done that in order to stop the debate in the sense of 
saying is immigration a benefit or is it not a benefit. They 
have conducted formal studies through the universities which 
have shown immigration definitely is an economic benefit to the 
country.
    Like the United States, Australia has structured its 
immigration intake into both temporary and permanent, and in 
doing so, it has based its immigration policy based upon the 
need of the country, and it has specifically taken steps to 
identify what the needs are and structured programs to 
accommodate those needs.
    What it has done is it is based on students and as Dr. 
Daniel eloquently stated, 17 percent of the Australian student 
population is made up of foreign students. So the student 
community in Australia represents a significant revenue boost 
for the Australian economy because there are foreign students 
bringing revenue into the country. But over and above that, 
there is obviously a significant talent pool from which the 
country draw.
    In doing so, what they have done is they have made it easy 
for students to apply for a student visa, and, secondarily, 
they have made it easy for students to actually go ahead and 
move directly from student to independent residence. So, in 
other words, there isn't this artificial barrier, unfortunately 
like we have in the United States, where students are required 
to demonstrate--we actually force them to acquire--that they 
have demonstrated an intent to return, whereas in Australia it 
is exactly the opposite. They really want them to come, and 
they want them to stay, and they are going to give them 
permanent residency to do so.
    Similarly, in the temporary residence program, what they 
have done is that they have created a precertification program 
which is very similar to what the SKIL bill creates, which 
basically allows for companies to put in place a mechanism 
whereby they create precertification that the applications in 
which all the bona fides of the company are documented at one 
time. And what this does is it reduces the amount of time that 
the adjudicators and that the companies have to go and 
continually repeat the same information about the company, and 
it allows for the streamlining and the expeditious processing 
of people coming into the country.
    Then what they have done is that they have linked the 
temporary residence program with the permanent residence 
program, which in turn allows companies who are compliant to 
move people straight into permanent residence, which in turn 
links the two and ultimately allows for consistency and 
certainty and an ability of corporations to plan.
    So there is a lot of forethought that has gone into the 
structuring of their program, and they have continually tweaked 
their program to accommodate the needs of business and have 
been very blatant in the acknowledgment that a skilled 
immigration is critical for the development of the country. 
They have blatantly said and they have recognized it, to the 
point where 70 percent of the permanent residence members are 
dedicated to skilled immigration versus as in the United States 
we have got only 16 percent of our permanent immigration to 
skilled immigration.
    Canada and the United States and the United Kingdom have 
also created similar situations whereby they have focused on 
skill to recruit top talent, and even a country like Costa Rica 
has put in place a system whereby the precertification program 
has reduced their processing time from 4 months to 15 days, all 
because they have listened to the needs of business and they 
have listened to the needs of the country to determine that 
competition is out there and that they have to get their share 
of talent.
    The SKIL bill goes a long way to meeting these needs, and 
while each of these countries' systems do not necessarily have 
all of the right answers, certainly the message that we should 
take from them is that the worst thing that we could do is 
nothing. And the SKIL bill goes a good way to addressing our 
top talent needs.
    I will be happy to answer any questions, and once again, we 
appreciate the opportunity to testify.
     [The prepared statement of Mr. Kaplan appears as a 
submission for the record.]
    Chairman Cornyn. Well, thank you, Mr. Kaplan, and thanks to 
each of you for your opening statements. I have a few questions 
I would like to follow up to put a little meat on the bone and 
maybe probe a little bit more on some of the things you have 
already talked about.
    Mr. Ritter, when a company like Texas Instruments cannot 
find the people with the special skills that you need in order 
to do your jobs there, what alternatives do you have in terms 
of your operations, your manufacturing operations here in the 
United States versus some other country around the world in 
terms of outsourcing and the like?
    Mr. Ritter. The answer may depend on which part of the 
business, whether it is manufacturing, the inability to retain 
somebody to do the manufacturing skills or software skills or 
whatever. But, in general, if you cannot do a critical step of 
the business process here either from a labor availability 
point of view or because it costs too much, you are going to do 
it somewhere else. And so, you know, there are some excellent 
universities outside the United States. I was in India last 
week and went to the India Institute of Technology in Madras, 
and, you know, it is remarkable not only the volume--and you 
cited some of the numbers, in terms of the number of engineers 
coming out of places like India and China, but also 
qualitatively how good these universities have become.
    And so for any company that operates on a global scale--and 
today over 75 to 80 percent of TI's revenue comes from outside 
the U.S. You know, if we cannot--if we do not have the talent 
here to do our advanced design and manufacturing work, it will 
go to the places that do have that talent.
    Chairman Cornyn. Let me ask you about a formulation that I 
have discussed in the past, basically that we have three 
choices when it comes to this issue. One is we can grow more 
domestic talent, and certainly we have talked extensively about 
TI's and other companies' efforts to do that in conjunction 
with the universities like the University of Texas at Dallas. 
Number two, if we cannot grow enough domestic talent, we have 
got to have a more expensive H-1B visa program so we can import 
that talent. But if we fail to do number one and number two, we 
fail to have the sufficient skill and talent to perform these 
jobs, do you agree with me that the only alternative is to 
outsource that work to other countries and the associated 
economic activity will no longer take place here in the United 
States and the jobs that go with it but, rather, in those 
countries where the jobs are outsourced?
    Mr. Ritter. It is inevitable. I mean, smart people are a 
proxy for economic wealth, you know, long term. I mean, you 
think about--you look at the history of TI, for example. Jack 
Kilby in this community invented the integrated circuit in 
1958, and it was a great innovation, and it wound up becoming, 
you know, a huge, multi-billion- dollar global industry. Well, 
Jack was one very, very smart guy who made a critical 
breakthrough invention.
    Well, you know, if you have got a lot of smart people who 
are working together in a community, at a university or at 
company, or in kind of closer dynamic for both innovation and 
economic growth, you are going to get jobs, you are going to 
get investment like the facility that is going up down the 
road. But if those people are not here, if they are not allowed 
to stay, if they are going somewhere else, then we won't. We 
won't get it here, and those jobs will be outsourced.
    Chairman Cornyn. Well, some have suggested on the floor of 
the United States Senate that we ought to somehow penalize 
companies for outsourcing jobs to other countries. I think 
several commentators on cable news and elsewhere regularly have 
segments on the American companies outsourcing jobs and 
criticizing them for doing so. Why can't Congress just pass a 
law and say that American companies cannot outsource jobs to 
other countries, even if they cannot find labor here in the 
United States? What would be the impact?
    Mr. Ritter. It makes absolutely no sense. You know, the 
assumption that something as dynamic as certainly our industry 
or the high-technology industry is always going to remain the 
same and you are going to have the same number and kinds of 
jobs in a community like North Texas today that you did 5 years 
ago or that you will have 5 years from now makes absolutely no 
sense. We need to be focused instead on: How do we constantly 
climb the technology ladder? How do we innovate to get to the 
next step? How do we create new industries and new jobs in the 
community that do not exist today?
    Some of the research that is going on in nano- electronics, 
for example, here at UTD is going to result in economic 
activity, entrepreneurial outfits, new job creation, you know, 
5 and 10 years from now. We cannot even predict what it is 
going to look like today. That is the dynamic we have got to 
encourage rather than trying to lock in the status quo and 
think that everything that we have got here today is going to 
remain the same forever, because it will not.
    Chairman Cornyn. Ms. Norman, when your hospital hires 
nurses, could you expand on what you do to try to hire U.S.- 
based nurses and only then turn to foreign nurses? And could 
you tell us, is your search based on merit alone, or is it 
based on other considerations?
    Ms. Norman. Our preference is to recruit domestic nurses. 
We would like to be able to grow all the nurses that we need in 
our community, and so we have a number of initiatives 
available, scholarships, work-related programs to support 
nursing students. We lend faculty to universities. We do any 
number of things to try and grow enough, if you will, to be 
able to support our needs.
    However, you know, the fact of the matter is there are more 
attractive careers. People are looking elsewhere. Looking in 
this room at the number of women that are here now, 4 years ago 
that would not be the case, is my guess. When I went into 
nursing, that was a different story, and that was about 40 
years ago.
    So we do make every attempt, and much is going on in the 
country, to try to educate the number of nurses that we need 
here. However, that is just not enough, and so we need that 
external talent right now. It would be great in the future if 
we could overcome these difficulties, and with all the efforts, 
possibly we will get there. But it will be a long time, and so 
we cannot afford to have the interruption.
    So in looking at a nurse, what we look for are the 
qualifications: that they have graduated from an accredited 
program, that they are licensed in the State, and we then have 
competency-based evaluations as they come into the workforce to 
determine do they really have the critical thinking abilities 
that they need for us to even work with the individual. And 
then we design special programs for them to get them up to 
speed.
    Chairman Cornyn. As we have discussed, there is obviously a 
huge shortage of qualified nurses in America, and the 
Department of Labor has designated the profession as a shortage 
occupation. In other words, the Federal Government has 
acknowledged exactly what you have testified to here today. But 
then those same nurses that the Federal Government says we need 
are subject to an annual green card limit that has been talked 
about, which, of course, seems entirely inconsistent.
    Do you have any opinion as to how we got ourselves into 
this mess? In other words, how is it that we have been unable 
to attract more students into nursing schools? And how is it 
that we have created policies that seem so inconsistent in 
terms of what the needs of the community are and access to good 
nurses?
    Ms. Norman. Well, I have already mentioned that other 
careers are more attractive, but the number one factor related 
to not being able to produce enough nurses is the shortage of 
faculty, qualified faculty at the doctorate level. And the fact 
of the matter is salaries are so low for faculty members that 
academic institutions cannot compete with hospitals and the 
rest of the health care industry in paying the kinds of 
salaries that practicing nurses get. So that is the number one 
factor. Much is being done at all levels, really, to address 
this as much as possible.
    Chairman Cornyn. If there are not enough nurses, why don't 
market forces increase, force the increase in pay that would 
attract more people into the field?
    Ms. Norman. Well, it is moving up. Nursing salaries are 
moving up. But it is the academic institutions that have 
certain policies that prevent nursing faculty from making more 
than other faculty members.
    Chairman Cornyn. And as you say, the other piece of the 
puzzle is not having enough teachers, people teaching people 
how to become nurses here, too, for the reasons you--
    Ms. Norman. But there are special programs in Texas, 
special grants that are made available for individuals who want 
to get a master's or a doctorate degree in nursing, if they 
will stay in teaching then in an academic setting for a certain 
period of time.
    Chairman Cornyn. And there are a lot of things, as you say, 
that are being done at the local level by hospitals 
volunteering some of their nursing staff to serve as teachers 
and provide for that shortage?
    Ms. Norman. Correct.
    Chairman Cornyn. I mean, there is a lot going on at the 
local and State level, even while the Federal Government 
continues to be part of the problem because of the caps on the 
green cards and the like.
    Mr. Kaplan, I was very much interested in what you had to 
say about how other countries prioritize their visas for the 
people who have the kinds of skills that they know they need in 
order to compete in a global economy. And as you have said, 
only 16 percent of American visas go to skilled immigrants, and 
about half go for family members. I guess you should say we 
have kind of a family-oriented immigration policy rather than a 
skill-oriented immigration policy. Is there some way we can 
focus more on skills yet still be family friendly, in other 
words, allow families to be unified and not separated? Because 
I hear that complaint quite a bit, that even for people who do 
get green cards, sometimes it may take, because of caps, 
country-related caps, 8, 10 years for a close family member to 
also come to the United States.
    Mr. Kaplan. It is a very interesting point because, you 
know, the U.S. really does put an emphasis on family 
reunification, and it is an integral part of our immigration 
policy. And it is very valuable and it is very important, and 
it should not be, you know, not considered relevant.
    However, if you look overseas, I think that what some other 
countries have done is that they have actually recognized that 
issue as well, and what they have done is they have recognized 
that the family component is very important. In some countries, 
they have actually gone even a little bit further than we have 
gone, to the point where--I will give you an interesting 
example. In the Australian immigration debate, there was always 
this argument about the cost of family immigration, because the 
Australian--it is quite interesting. The Australian economy is 
very much more socialist, of course, than we are. Yet at the 
same we are worried about the cost of immigration. And they did 
an analysis of the cost of parent-related immigration, which 
was really interesting, and they did an analysis as to how to 
taper that versus skilled immigration. And they have come up 
with an economic-based program which allowed parents who are 
not going to be a drain on the economy to come in.
    Having said that, they did--you know, for us it is possible 
to balance by allowing--the SKIL bill goes a long way to 
accommodate issues like that because what it does is it allows 
for the numbers to increase, which in turn does not detract yet 
from the family-based system, which is what other countries 
have done, with a lot of increase in the skill-based, and there 
is a lot of focus on skill-based and based on what the needs of 
a country have been.
    For example, in some countries you will find that you get--
in a points-based system, you are going to be given points for 
skill, age, language, as well as in some cases family members 
that are already based in the country. So once again, while we 
cannot achieve the final result, you know, right away, what the 
SKIL bill does is it does give us the ability to at least 
increase our skill base, but at the same time not damage what 
really is somewhat of--
    Chairman Cornyn. By accepting certain high-skilled students 
from the--
    Mr. Kaplan. That is correct.
    Chairman Cornyn. Graduates from the cap.
    Mr. Kaplan. That is correct.
    Chairman Cornyn. It allows us to accomplish both of those 
goals.
    Mr. Kaplan. Absolutely. Any increase in the permanent 
number.
    Chairman Cornyn. In your practice, have you seen instances 
where foreign nationals who are studying or working in the 
United States on temporary visas actually move back to another 
country or to their home because of frustration within 
immigration backlogs?
    Mr. Kaplan. Yes, absolutely. There is no doubt that that 
has occurred, and particularly what--
    Chairman Cornyn. Let me just ask, interject: Is that 
because of a shortage of people working on the process? Or is 
it because of legal or other impediments that prevent that from 
moving more quickly?
    Mr. Kaplan. I would suggest that it is a combination of 
both. I would say that, you know, the current system sometimes 
makes it just too difficult to have certainty about their long-
term future. And there have been a number of factors that have 
come into play.
    If you take, for example, China and India as two countries 
which have historically delivered foreign students to the U.S. 
who are really critical, as has been stated here before, what 
you will find is that in the current global economy there is a 
concept of the returnee, and that is that people who have 
studied here are being really sought after to come back to 
their home countries because the economies of those countries 
are doing well, there is a significant shortage of management 
and skill in those countries, and I think it is very difficult 
for somebody who has no certainty, because the system cannot 
give them certainty, to look to plain their future in a country 
where, in essence, if their home country is doing well and 
there are opportunities for them, it is a big pull to come 
home. And if things are going to be difficult here because 
there is just simply no category for them to go into and they 
really have to fight to stay and fight to remain, I think that 
it is just much easier to go home, take advantage of the 
opportunities that home represents and the opportunities and 
the increase in those countries' economies, and unfortunately, 
we just simply lose out--all the time, effort, and energy that 
we have put into training them, giving them an education, and 
then suddenly they are lost.
    Chairman Cornyn. Dr. Daniel talked a little bit about the 
fact that because of impediments to foreign students coming to 
study here, other countries have offered attractive packages or 
made offers to those. Can you tell us, in the global 
competition for the best and the brightest, if the United 
States does not step up and deal with issue, as we have 
discussed here this morning, what countries are in the game and 
competing with us for those best and brightest students today?
    Mr. Kaplan. Unfortunately, most countries today. So, for 
example, we have mentioned Australia, significantly. The U.K. 
is focusing very heavily on the recruitment of foreign 
students. In Europe, the European Union is really putting an 
emphasis on the gathering of some kind of a central university 
top system which is going to make it much easier for students 
to go and work in Europe. Singapore has been mentioned, which 
is a very big part of the glut of the talent pool. And you will 
find that just those countries alone, just using those as 
examples, we are really going to be struggling to compete 
because it is much easier, and they really are encouraged to go 
to those countries, whereas here it is made very difficult.
    Chairman Cornyn. So it sounds to me from your testimony and 
that of others that while America has been the beneficiary of 
the migration of the best and brightest of this country over 
the course of our 200-year-plus history, we stand in danger of 
moving backwards because other countries are now beginning to 
compete with us at our own game. Would that be a fair way of 
saying it?
    Mr. Kaplan. Yes. In fact, it has been stated in the 
Australian debate that the thing that they worry about most is 
that the United States will recognize, you know, what the 
current situation is and fix it. That is part of the debate. 
That sort of sums it up, I would think.
    Chairman Cornyn. So they will prosper if we remain asleep 
at the switch, is another way of--
    Mr. Kaplan. But the worst thing we could do is nothing.
    Chairman Cornyn. Well, ladies and gentlemen, thank you very 
much for your testimony and for the help you have given us in 
understanding these important issues. Also, again, to our first 
panel, thanks for your contribution, Mr. Cooper and Dr. Daniel.
    Dr. Daniel, thanks for making the facilities here at 
University of Texas at Dallas available to us. I hope the 
testimony we have heard today will add to the debate and will 
help people understand that the immigration challenge t this 
Nation faces is not just about border security, it is not just 
about low-skilled immigration. It is about how can America 
compete in a global economy and what kind of immigration policy 
is in our National interest. And the fact that, as this panel 
has reiterated time and time again, if we do nothing America 
will lose in that global competition. And the aspirations that 
I know every generate has for succeeding generations, that 
somehow their life will be better, their opportunities greater 
than even those that we enjoy now, that we will not be able to 
keep that commitment to future generations unless we wake up 
and correct the mistakes of our current policy--or, as some 
might say, our current non-policy--when it comes to this area.
    On behalf of the Subcommittee, I want to thank everyone for 
their time and testimony. I particularly want to extend my 
appreciation to my staff, who have worked hard to make this 
possible. We have got my chief counsel, Rita O'Connor; Linden 
Melmed, who is counsel on the Subcommittee, who is my 
immigration specialist. We have also got a number of folks here 
from my Dallas staff here who have made this possible here 
today. So I want to extend my thanks and appreciation to each 
of them.
    We will leave the record open until 5:00 p.m. on Thursday, 
September 7th, for members of the Committee to submit 
additional documents into the record or to ask additional 
questions in writing. So I will just alert you that those may 
be coming, and if you will please turn to those as quickly as 
you can so we can get that information into the record.
    With that, the hearing is adjourned.
    [Whereupon, at 11:45 a.m., the Subcommittee was adjourned.]
    [Submissions for the record follow.]

    [GRAPHIC] [TIFF OMITTED] T2147.001
    
    [GRAPHIC] [TIFF OMITTED] T2147.002
    
    [GRAPHIC] [TIFF OMITTED] T2147.003
    
    [GRAPHIC] [TIFF OMITTED] T2147.004
    
    [GRAPHIC] [TIFF OMITTED] T2147.005
    
    [GRAPHIC] [TIFF OMITTED] T2147.006
    
    [GRAPHIC] [TIFF OMITTED] T2147.007
    
    [GRAPHIC] [TIFF OMITTED] T2147.008
    
    [GRAPHIC] [TIFF OMITTED] T2147.009
    
    [GRAPHIC] [TIFF OMITTED] T2147.010
    
    [GRAPHIC] [TIFF OMITTED] T2147.011
    
    [GRAPHIC] [TIFF OMITTED] T2147.012
    
    [GRAPHIC] [TIFF OMITTED] T2147.013
    
    [GRAPHIC] [TIFF OMITTED] T2147.014
    
    [GRAPHIC] [TIFF OMITTED] T2147.015
    
    [GRAPHIC] [TIFF OMITTED] T2147.016
    
    [GRAPHIC] [TIFF OMITTED] T2147.017
    
    [GRAPHIC] [TIFF OMITTED] T2147.018
    
    [GRAPHIC] [TIFF OMITTED] T2147.019
    
    [GRAPHIC] [TIFF OMITTED] T2147.020
    
    [GRAPHIC] [TIFF OMITTED] T2147.021
    
    [GRAPHIC] [TIFF OMITTED] T2147.022
    
    [GRAPHIC] [TIFF OMITTED] T2147.023
    
    [GRAPHIC] [TIFF OMITTED] T2147.024
    
    [GRAPHIC] [TIFF OMITTED] T2147.025
    
    [GRAPHIC] [TIFF OMITTED] T2147.026
    
    [GRAPHIC] [TIFF OMITTED] T2147.027
    
    [GRAPHIC] [TIFF OMITTED] T2147.028
    
    [GRAPHIC] [TIFF OMITTED] T2147.029
    
    [GRAPHIC] [TIFF OMITTED] T2147.030
    
    [GRAPHIC] [TIFF OMITTED] T2147.031
    
    [GRAPHIC] [TIFF OMITTED] T2147.032
    
    [GRAPHIC] [TIFF OMITTED] T2147.033
    
    [GRAPHIC] [TIFF OMITTED] T2147.034
    
    [GRAPHIC] [TIFF OMITTED] T2147.035
    
    [GRAPHIC] [TIFF OMITTED] T2147.036
    
    [GRAPHIC] [TIFF OMITTED] T2147.037
    
    [GRAPHIC] [TIFF OMITTED] T2147.038
    
                                 <all>

</pre></body></html>
